<html>
<title> - NASA'S NEXT FOUR LARGE TELESCOPES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                   NASA'S NEXT FOUR LARGE TELESCOPES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2017

                               __________

                           Serial No. 115-41

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-680 PDF                 WASHINGTON : 2018             
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas

                            C O N T E N T S

                            December 6, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    17
    Written Statement............................................    18

                               Witnesses:

Dr. Thomas Zurbuchen, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration
    Oral Statement...............................................    19
    Written Statement............................................    22

Ms. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office
    Oral Statement...............................................    33
    Written Statement............................................    35

Mr. A. Thomas Young, Former Director, Goddard Space Flight 
  Center, NASA; Former President and Chief Operating Officer, 
  Martin Marietta Corporation
    Oral Statement...............................................    55
    Written Statement............................................    57

Dr. Matt Mountain, President, Association of Universities for 
  Research in Astronomy
    Oral Statement...............................................    64
    Written Statement............................................    66

Dr. Chris McKee, Professor Emeritus of Astronomy, Physics, 
  University of California, Berkeley, on behalf of the National 
  Academies of Sciences, Engineering and Medicine
    Oral Statement...............................................    79
    Written Statement............................................    82

Discussion.......................................................    86

             Appendix I: Answers to Post-Hearing Questions

Dr. Thomas Zurbuchen, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration.....   102

Ms. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office..............   111

Mr. A. Thomas Young, Former Director, Goddard Space Flight 
  Center, NASA; Former President and Chief Operating Officer, 
  Martin Marietta Corporation....................................   113

Dr. Chris McKee, Professor Emeritus of Astronomy, Physics, 
  University of California, Berkeley, on behalf of the National 
  Academies of Sciences, Engineering and Medicine................   114

       Appendix II: Additional Materials Submitted for the Record

Hearing responses submitted by National Aeronautics and Space 
  Administration.................................................   118


                   NASA'S NEXT FOUR LARGE TELESCOPES

                              ----------                              


                      Wednesday, December 6, 2017

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:41 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Babin. The Subcommittee on Space will now come to 
order. Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time. Welcome to today's 
hearing entitled ``NASA's Next Four Largest Telescopes.'' I 
would now like to recognize myself for five minutes for an 
opening statement.
    In May of this year, the primary mirror for the James Webb 
Space Telescope arrived in Houston, which is in my district at 
JSC, for a final round of cryogenic testing, just in time for 
the hurricane season.
    These components started a 100-day testing session in a 
vacuum chamber at the Johnson Space Center, where three 
truckloads a day of liquid nitrogen and cold helium gas chilled 
the telescope to minus 233 degrees Celsius. That's a total of 
300 trucks just for one test.
    Well, I'm told that Hurricane Harvey complicated things by 
washing out the roads so bad that they had to improvise a new 
route to get the trucks to the test facility. I am very proud 
of the fine job that the folks at JSC did working around the 
clock to ensure the test was a success. I know firsthand the 
hardships that are being experienced in Houston due to the 
hurricane, Hurricane Harvey, and I pray that the recovery for 
everyone there is going as well as can be expected given the 
conditions. I would like to add, too, that the new continental 
rainfall record is in my district of 51.88 inches and an 
unofficial record of 64-plus inches.
    While the 2017 hurricane season has been challenging, this 
year has been an exciting time for astrophysics. The Nobel 
Prize in Physics was awarded to three citizens, three 
Americans, that developed the Laser Interferometer 
Gravitational-wave Observatory, or LIGO, which made the first-
ever direct observation of gravitational waves, ripples in the 
fabric of space and time, that were predicted by Albert 
Einstein 100 years ago.
    I understand several of the potential witnesses for today's 
hearing could not attend because they are in Stockholm at the 
prize celebrations. I'd like to congratulate these fine 
Americans for their outstanding discoveries.
    Our nation is proud of these achievements. Images from the 
Hubble Space Telescope are some of the most iconic in history. 
And we look forward to what is to come from even more capable 
missions like the Wide-Field Infrared Space Telescope, WFIRST.
    It has been mentioned to me that with Hubble you could take 
a single picture into a meeting to show what was discovered, 
but with WFIRST you'll have to wallpaper their entire office. 
The capability has increased 100 times since Hubble.
    WFIRST is a critical new flagship mission, and we need to 
make sure that it stays on course. The assets provided to NASA 
from the National Reconnaissance Office seem like a good fit 
for the mission, but the program needs reasonable timelines and 
a realistic budget.
    It is worth noting that several years ago this Committee 
proposed that NASA study WFIRST to determine if the assets from 
NRO would be appropriate for this mission and whether it would 
cost more to repurpose existing hardware than to build the 
observatory from the ground up. Now we face additional 
questions about the appropriate scope of the mission.
    The recent report from the independent review committee on 
WFIRST laid out several options for reining in the cost. And 
I'm particularly interested to learn more about what impact 
reducing capability will have on the cost, but more 
importantly, on the science.
    I was pleased to see NASA's Request for Information, or an 
RFI, announcement on October 12th seeking input from private 
parties interested in operating the Spitzer Space Telescope and 
executing the Spitzer science program. NASA is looking for 
partners to continue operating the space telescope on their own 
dime after the NASA mission is completed. I applaud this type 
of innovative approach, and I hope to see more thinking like 
this in the future.
    NASA is currently conducting large- and medium-mission 
concepts studies for the 2020 Decadal survey. New concepts like 
in-space assembly, in-space servicing, and taking advantage of 
the proposed Deep Space Gateway when developing architectures 
for very large space telescopes could offer tremendous new 
capabilities.
    However, Congress needs to understand the status of the 
programs today as well as the plan going forward. Decisions 
made now can have long lasting implications on future missions.
    It seems the smaller principal investigator, or PI, that 
lead missions generally do well at budgeting, scheduling, and 
cost containment. We need to know that there isn't a systematic 
or fundamental programmatic problem with how we plan and 
execute these larger strategic missions.
    And I am thankful that our witnesses are here today to help 
us better understand where we are with these programs and how 
we plan to move forward. And I very much look forward to 
hearing your testimony.
    [The prepared statement of Chairman Babin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      Chairman Babin. I would like to now recognize the Ranking 
Member, the gentleman from California, Mr. Bera, for his 
opening statement.
    Mr. Bera. Thank you, Mr. Chairman, and thank you for having 
another incredibly interesting hearing. And I look forward to 
learning a lot from the witnesses.
    I think we can all, you know, remember as children, you 
know, just kind of laying on our backs in our backyards or 
wherever we were, gazing up at the sky. And even to this day, 
you know, on clear evenings, I'll go out and lay and just gaze 
up at the stars. And my daughter will sit there and say, Dad, 
what are you doing out there? And it's the mystery of what's 
out there. What can we discover? What don't we know? That is 
exciting. And you know, it's something that piques our 
curiosity.
    And you know, you can see a lot with the naked eye, but you 
know, really you could see a lot more with the advancements 
we've made in our telescopes, starting in 1990 with the Hubble 
Space Telescope. What we've been able to discover in these last 
two decades has been pretty remarkable. Hubble helped 
scientists pin down the age of the universe, showed us some of 
the most distant galaxies that we've ever observed. You know, 
the Compton Gamma Ray Observatory created the first-ever all 
sky map of gamma radiation. The Chandra x-ray Observatory 
revealed the first-ever observations of a supernova remnant. 
These are all pretty exciting.
    You know, if you take Hubble, Chandra, and Spitzer, all 
provided recently the observations of the neutron star merger 
detected via gravitational waves by LIGO. Again, pretty 
remarkable what we are discovering.
    So I think this is a very timely hearing as we start to 
think about, you know, the next technologies and observatories 
that let us look into our origins as well as what is out there. 
You know, in March 2018, TESS is going to be launched which 
will build on the success of the Kepler mission to conduct the 
first all-sky survey transiting exoplanets from space.
    You know, the Chairman talked about James Webb, which will 
follow Hubble as the next great space observatory but with 100 
times the sensitivity of Hubble. Again, what are we going to 
discover with that and how does that continue to propel us 
forward? We're in the first early stages of the WFIRST program 
and looking at where that will take us. But it will give us a 
much larger field of view to advance the science of dark energy 
and exoplanets. Again, you know, what is out there? Answering 
that question, and you know, hoping to propel another 
generation of folks like myself to just gaze and wonder and 
enter the fields of science.
    And you know, we're talking about the next four missions. 
So as we start to think about that fourth mission, how do we 
learn from the missions that have preceded it? And how do we 
make sure we engage in an open process, you know, following the 
Decadal Survey, looking at that and, you know, really build on 
what we've learned, make sure we're using all of our resources 
responsibly but that we're objectively choosing what that next 
mission would be?
    So again, I'm pretty excited about this hearing. I think it 
builds on what I think is the best subcommittee in Congress and 
certainly the most interesting subcommittee in Congress. And 
with that, I'll yield back.
    [The prepared statement of Mr. Bera follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Babin. Thank you, and I do agree. I now recognize 
the Chairman of our Full Committee, the gentleman from Texas, 
Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. I appreciate both 
your comments and the Ranking Member's comments, particularly 
when you all pointed out that this is a fascinating subject for 
the American people. They are just riveted by what's going up 
in space, particularly telescopes that they can see and that 
are tangible.
    I might ask the Ranking Member if he would extend his 
description of this being his favorite subcommittee to the 
Science Committee being his favorite Full Committee or not. 
Maybe? Oh, okay. We'll take any suggestions.
    Mr. Chairman, space-based observations from telescopes like 
the Hubble Space Telescope have amazed us for decades and 
expanded our understanding of the universe. We have also seen a 
rapid increase in the exciting discoveries of planets outside 
our own solar system.
    We have confirmed over 3,500 exoplanets and another 4,000 
unconfirmed planetary candidates since 1995. Scientists 
estimate that as many as 11 billion rocky, Earth-sized 
exoplanets could be orbiting in the habitable zones of Sun-like 
stars in our own Milky Way galaxy alone.
    NASA's next four space telescopes will give us new ways to 
search for exoplanets and potential signs of life. Each one is 
designed to build on each other's success.
    It's an exciting time for astrophysics. The Transiting 
Exoplanet Survey Satellite, or TESS, is being prepared for 
launch next year. The James Webb Space Telescope, or JWST, is 
only a couple of years away from launch. The Wide Field 
Infrared Survey Telescope, or WFIRST, program is well underway. 
And we are now in the early stages of designing the next 
generation space telescope that will hopefully answer many more 
of our questions about the universe. In January 2016, NASA 
initiated the four Decadal survey Mission Concept Studies for 
the next space telescope that would launch in the 2030s.
    With the coming heavy lift capability of the Space Launch 
System, a future space telescope larger than James Webb could 
be possible. SLS could enable the launch of telescopes that 
could scan exoplanets for signatures that indicate the presence 
of continents, oceans, atmospheres, habitable conditions and 
perhaps even life itself.
    The National Academy of Sciences is preparing to undertake 
their 2020 Astronomy and Astrophysics Decadal survey. The 
survey will help inform the Academy about options for future 
missions.
    As fascinating as this all sounds, the space program is 
hampered by delays. James Webb recently encountered additional 
problems during testing that will delay the mission to as late 
as June 2019. An independent review board for WFIRST concluded 
the project is ``not executable'' without additional funding or 
scaling back the mission. And TESS, while still on schedule and 
budget, experienced a focal shift within the optics of its four 
wide-angle telescopes during testing that may degrade the 
science it conducts. The issues with JWST are not 
insignificant; however, NASA expects the existing James Webb 
budget to be able to accommodate the change in launch date and 
that there will not be an impact on the planned science 
observations. The remaining work will focus on integrating and 
testing the instruments, telescope and spacecraft to prepare it 
for its new launch date in 2019.
    More troubling is the report on WFIRST. An independent 
outside committee established by NASA found that various 
changes made to WFIRST since it was first proposed as the top-
ranking flagship mission in the 2010 Astrophysics Decadal 
survey created additional costs and technical difficulties. 
Apparently NASA has not learned lessons from its past 
experiences. After an extensive re-planning effort due to 
excessive cost growth, NASA had to constrain James Webb in 2012 
to a congressionally mandated cost-cap of $8 billion. Now 
WFIRST may be subjected to a similar limitation. We cannot 
allow unbudgeted cost to occur on WFIRST the same way it did on 
James Webb. The impact to other science missions, as well as 
other activities at NASA, would be too great. Much better 
program management and discipline are required to ensure that 
this does not continue to occur.
    Last month NASA instructed the WFIRST program to modify the 
current design to reduce costs to an earlier target of $3.2 
billion. I am hopeful that the program will find creative 
solutions to maintain the mission's science objectives. NASA 
must remain mindful that any potential cost increase of WFIRST 
will put pressure not only on other astrophysics mission, but 
also on other agency priorities. NASA should continue to 
explore options to reduce the costs of these large programs, 
such as leveraging program surpluses, early-stage cost-caps, 
and firm fixed-price contracts which will benefit taxpayers.
    Partnerships between the private and public sector in 
astronomy are well established, and these ties need to be 
strengthened when it comes to space telescopes. Going forward, 
I hope that NASA, space companies, and academia will work 
together to expand public-private partnerships.
    We are on the cusp of something very significant for 
humanity. But we are still at the beginning. Many more amazing 
discoveries await us. Going forward, Congress needs to have the 
necessary confidence in NASA and its contractors to put us on 
the right path at a reasonable cost.
    I look forward to our witnesses' testimony today. With 
representation from NASA, the National Academy of Sciences, the 
Association of Universities for Research in Astronomy, the 
Government Accountability Office, and renowned leaders in the 
field, we have the opportunity to hear a number of valuable 
perspectives.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Babin. Yes, sir. Thank you. Now, I'd like to 
recognize the Ranking Member of the Full Committee, the 
gentlewoman from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and a good 
afternoon and let me welcome our witnesses.
    This hearing that's being held on NASA's Next Four Large 
Telescopes is timely. And today we will receive an update on 
three telescopes that are likely to revolutionize our 
understanding of the cosmos. Two of those telescopes, JWST and 
WFIRST, were the top recommendations of the National Academies' 
widely respected and highly influential Decadal survey process, 
which was pioneered by the astronomy and astrophysics community 
in 1964.
    Each of these independent Decadal surveys has involved 
hundreds of scientists and resulted in an independent, peer-
reviewed set of recommended science goals and missions to guide 
NASA's astrophysics program for the next decade. Importantly, 
the Decadal survey has also consistently recommended that 
federal investments be made in a way that ensures a balance is 
maintained between support for large, medium, and small 
missions and the research that turns data from those missions 
into new knowledge. While the Decadal survey process is not 
perfect, it is this independent, consensus-based process that 
has been critical to ensuring that Congress supports the 
priorities established by the astronomy community rather than 
missions favored by some parties.
    That is why Congress, in successive NASA Authorization 
Acts, has consistently directed that NASA's science programs be 
based on Decadal survey priorities. Most recently, the 2017 
NASA Authorization Act directs NASA to set science priorities 
by following the guidance provided by the scientific community 
through the National Academies of Sciences, Engineering, and 
Medicine's Decadal surveys. The recommendations of the 2010 
astronomy and astrophysics Decadal are particularly important 
as NASA works to determine the appropriate scope of the WFIRST 
mission. I commend NASA for taking the time to undertake an 
independent review to assess the alignment of this mission to 
the Decadal survey's guidance and to the goal of ensuring the 
overall balance of the astronomy program.
    In addition, I look forward to hearing about the progress 
NASA is making on its next space telescopes. I am glad to hear 
that NASA is preparing for the upcoming astronomy and 
astrophysics Decadal survey by conducting four large mission 
concept studies for the Decadal committee to consider during 
its deliberations.
    And I note that we only have representation from one of the 
four candidate mission concepts here today. I look forward to 
hearing about the other three mission concepts as well, today 
or in the future, because I am sure they are equally as 
fascinating. Of course, it is ultimately the role of the 
National Academies and not the Congress to deliberate the 
science promise of each of these mission concepts.
    So I look forward to the witnesses, and I yield back the 
balance of my time.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Babin. Thank you. I'd like to introduce our 
witnesses. The first is Dr. Thomas Zurbuchen, and he is 
Associate Administrator of Science Mission Directorate at NASA. 
He earned both his Master's of Science degree and his Ph.D. in 
Physics from the University of Bern in Switzerland. Thank you 
for being here today.
    Ms. Cristina Chaplain, good to have you, our second witness 
today. She is Director of Acquisition and Sourcing Management 
at the U.S. Government Accountability Office. She received a 
Bachelor's degree in International Relations from Boston 
University and a Master's degree in Journalism from Columbia 
University. Welcome.
    Mr. A. Thomas Young, our third witness, is former Director 
at NASA's Goddard Space Flight Center as well as former 
President and Chief Operating Officer of Martin Marietta 
Corporation. Mr. Young earned both a Bachelor's degree in 
Aeronautical Engineering and a Bachelor's degree in Mechanical 
Engineering from the University of Virginia and a Master's of 
Management degree from MIT. Welcome to you.
    Our fourth witness today is Dr. Matt Mountain, President of 
the Association of Universities for Research in Astronomy. He 
received his degree in Physics as well as his Ph.D. in 
Astrophysics, both from the Imperial College of Science and 
Technology, University of London. Welcome to you.
    And our last witness today is Dr. Chris McKee, Professor 
Emeritus of Astronomy and Physics at the University of 
California at Berkeley. He is testifying on behalf of the 
National Academies of Sciences, Engineering and Medicine. He 
received his Bachelor's of Arts degree from Harvard and his 
Ph.D. in Physics from the University of California in Berkeley. 
Welcome to you.
    I would like to now recognize Dr. Zurbuchen for five 
minutes to present his testimony.

               TESTIMONY OF DR. THOMAS ZURBUCHEN,

                    ASSOCIATE ADMINISTRATOR,

                  SCIENCE MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Zurbuchen. Thank you. Members of the Subcommittee, I'm 
pleased to be here today. I want to remember that over 70 years 
ago, Dr. Lyman Spitzer wrote the first scientific paper that 
explained the practical advantages of putting large telescopes 
into space. Dr. Spitzer's dream for large space telescopes was 
born in the aftermath of World War II and more than a decade 
ahead of Sputnik. His dream led to a series of NASA-built space 
telescopes of increasing size and capability, including one 
that now bears his name. However, it has not been easy. Placing 
increasingly capable and complex telescopes in the cold vacuum 
of space is challenging. Some of NASA's early orbiting 
telescopes suffered from launch failures. Others had on-orbit 
issues which limited their lifetime. Several cost more than 
originally planned. But many were ground-breaking successes and 
transformed how we look at the universe.
    NASA has a long history of undertaking large space 
telescopes that involve significant risk but include monumental 
advances in our understanding of the universe and our place in 
it. Hubble was the first of NASA's observatories. Working 
together, and in concert with ground-based observatories, these 
large space telescopes have rewritten textbooks and inspired 
young people in the U.S. and around the world to study science, 
technology, engineering, and mathematics, like myself.
    Along with constructing and operating large facility space 
telescopes, NASA conducts more frequent smaller-scale missions 
principal investigator, PI, led within the Explorer Program. 
The combination of PI-led missions and large space telescopes 
have achieved some amazing results. One example is the study of 
exoplanets already mentioned. Thanks to the PI-led Kepler Space 
Telescope mission, we now know that planets orbiting outer 
stars are very common.
    Next up is TESS, already mentioned, which was selected in 
2013 as an Astrophysics Explorer. TESS's mission is to discover 
those nearest planetary systems that have the highest potential 
for follow-up characterization using telescopes such as Webb 
and WFIRST. TESS is currently undergoing integration and 
testing and is on track to meet its launch-readiness date in 
March 2018. An unexpected issue encountered during development 
was a slight focus shift of the cameras during low-temperature 
testing. This was due to a previously unknown, low-temperature 
behavior of a material that was used in other spacecraft. The 
TESS science team has determined that TESS can achieve its 
science requirements with that shift, and we look forward to 
its launch next year.
    We're also eagerly awaiting the launch of the James Webb 
Space Telescope in 2019. Webb will be the most powerful space 
telescope ever built, kept extremely cold by a tennis court-
sized sun shade in order to detect the infrared light from very 
faint, distant objects.
    Webb passed a major milestone with the end of cryogenic 
testing in November at NASA's Johnson Spaceflight Center in 
Houston. The test showed that the mission is meeting its 
required performance levels. And I really want to also thank 
the teams at Johnson which continued the testing in the 
onslaught that was already described earlier.
    The sun shield and spacecraft bus experienced delays during 
their integration and testing at Northrop Grumman. Following a 
schedule assessment of the remaining activities, the Webb 
launch date was changed from October 2018 to between March and 
June 2019. And as already mentioned, the existing program 
budget accommodates the change of that launch date.
    After Webb, NASA's next great observatory will be WFIRST. 
Its purpose is to survey large swaths of sky to provide 
detailed information on the expansion history of the universe 
and conduct a large-scale search for exoplanets using 
gravitational lensing of the light of background stars. In 
addition, WFIRST will carry a technology demonstration 
coronagraph instrument designed for the detailed analysis of 
such exoplanets.
    In 2016, the National Academy mid-term report affirmed 
WFIRST scientific promise but cautioned against allowing the 
cost of the WFIRST mission to affect the balance of missions 
and research in NASA's portfolio. Based on the report's 
recommendation, I commissioned an independent technical 
management and cost assessment of the project. Upon completion 
of this independent assessment this fall, I directed the team 
to find reductions in scope and complexity sufficient to return 
to the cost estimate, the target set at the beginning of the 
project. I look forward to seeing the redesigned WFIRST mission 
concept in February.
    Thinking beyond WFIRST, we have initiated four concept 
studies for the next great observatory, and I'd be happy to 
discuss them further. But our understanding of the universe is 
much richer than it was for the early pioneers of space 
astrophysics. Our children are looking at the universe 
differently than we did when we were kids, and this is due to 
the investment this body has made over the years. And we're 
deeply grateful for your support.
    I really look forward to answering any questions that you 
may have.
    [The prepared statement of Dr. Zurbuchen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairman Babin. Thank you very much, Dr. Zurbuchen. I now 
recognize Ms. Chaplain for five minutes to present her 
testimony.

         TESTIMONY OF MS. CRISTINA CHAPLAIN, DIRECTOR,

              ACQUISITION AND SOURCING MANAGEMENT,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Babin, Ranking Member Bera, Members 
of the Subcommittee, Chairman Smith and Ms. Chairman Johnson, 
thank you for inviting me today to discuss NASA's space 
telescopes. The focus of my statement will be on NASA's 
management of the three projects, TESS, WFIRST, and James Webb 
and what lessons we believe could benefit future NASA 
telescopes.
    In total, the three telescopes represent an inspected 
investment of at least 12.4 billion and about 50 percent of the 
budget for astrophysics. As such, while it is important for 
NASA to stretch technological boundaries to further scientific 
research, it is also important to manage and oversee the 
projects prudently.
    TESS is the smallest of the three projects at 336 million 
and closest to launch. It has not incurred costs or schedule 
delays at this point, though it has faced technical challenges. 
The projected launch date is currently March 2018. As it is in 
the final phases of development, TESS has been contending with 
an issue with camera performance and it faces the risk that its 
launch provider, SpaceX, may need more time than anticipated to 
be certified by NASA to fly. This is an upgraded version of the 
Falcon 9 launch vehicle, and it's the first time NASA is using 
it for science missions.
    James Webb, as you know, is the largest and most 
complicated of the three programs and one of the most 
challenging NASA has ever undertaken. It's expected to cost 
$8.8 billion which is 78 percent more than anticipated when 
baselined. Since its rebaseline in 2011, James Webb has stayed 
within cost and schedule despite facing a myriad of technical, 
engineering, and manufacturing problems.
    Healthy reserves have played an important role in keeping 
the program on track, but so have management and oversight 
practices which improved significantly after the rebaseline. 
The project is now in the midst of integration and testing, the 
most risky phase of its development. NASA recently announced a 
launch delay from October 2018 to the March through June 
timeframe of 2019. However, more delays are possible given the 
risks associated ahead, with the work ahead, and the level of 
schedule reserves that are now what is usually recommended, 
they're below what's recommended.
    WFIRST is still in the early phases of the development 
process. It has not yet set baselines for cost and schedule but 
preliminary estimates have been ranging from $3.2 billion to 
$3.8 billion and preliminary launch dates range from 2024 to 
2026. These estimates are under review as NASA responds to the 
independent review that found that mission scope is not aligned 
with resources provided.
    All three telescope programs as well as many other NASA 
projects are heeding lessons from the past. For example, we've 
reported in recent years that NASA's made significant 
improvements to cost and schedule estimating and oversight 
processes. More projects are maturing critical technologies 
before they undertake full-scale acquisition activities. These 
and other actions have helped NASA to reduce cost and schedule 
growth over time.
    As NASA assesses and undertakes future telescope efforts, 
there are four particular lessons learned that we believe 
should continue to be heeded. One is taking more steps or 
taking steps needed to ensure cost growth from a large project 
does not overwhelm the astrophysics portfolio. The recent 
WFIRST independent review was a good step in this direction as 
it took stock of a large project's business case before the 
most costly phases of acquisition begin.
    Two, establish adequate cost and schedule reserves. The 
current set of telescope projects have generally benefitting 
from having robust reserves to address risk. But this is not 
the case across NASA. Notably, the human spaceflight projects 
have all been operating with very limited level of reserves. 
This has led them to defer work to address technical issues to 
stay within budget and put future cost reserves at risk of 
being overwhelmed by the deferred work.
    Three, regularly update cost and schedule estimates. 
Programs have been reluctant to update joint confidence levels 
they establish at their baseline, and there's no requirement 
for them to do so. For James Webb, an updated estimate may have 
portended the current schedule delays.
    Four, enhance oversight of contractors. Much has been done 
in recent years to better monitor contract performance, but we 
still find some projects that do not manage contractors well 
and react only after problems become overwhelming. A program on 
the scale of WFIRST or James Webb requires good lines of 
communication, rigorous monitoring of cost progress, insight 
into contract workforce levels, and having a government 
presence at contractor facilities among other actions.
    This concludes my statement, and I'm happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Babin. Thank you very much. I now recognize Mr. 
Young for five minutes to present his testimony.

       TESTIMONY OF MR. A. THOMAS YOUNG, FORMER DIRECTOR,

               GODDARD SPACE FLIGHT CENTER, NASA;

         FORMER PRESIDENT AND CHIEF OPERATING OFFICER,

                  MARTIN MARIETTA CORPORATION

    Mr. Young. Space telescopes are a valuable and mandatory 
asset in the scientific exploration of our solar system, our 
galaxy, and the universe. Space telescopes range in size from 
explorers to large flagship missions. The 2010 Decadal survey 
emphasized the importance of maintaining a balance in the mix 
of explorers and large missions.
    Flagship missions such as Hubble, James Webb Space 
Telescope and WFIRST are mandatory to pursue scientific 
priorities that can only be investigated with large systems. 
NASA's Explorer Program has a rich history of scientific 
discovery and provides critical opportunities to develop 
scientists and engineers for the future.
    The excellence of the United States' Astronomy and 
Astrophysics Program cannot be maintained without a healthy 
balance of large, medium and small missions.
    I shall concentrate my comments upon JWST and WFIRST. These 
two flagship missions are in very different phases of their 
development with very different current challenges. Each 
mission requires bold leadership to assure mission success.
    JWST was the highest ranked mission in the 2001 Decadal 
survey. Clearly, JWST is one of the most important and 
challenging civil space missions ever undertaken. JWST has a 
history of cost growth and schedule delays. It also has a 
history of development success on a project with significant 
technological challenges.
    NASA made a decision a few years ago to fix JWST 
programmatic issues by budgeting to the most probable cost and 
scheduling to the most probable schedule. Until recently, 
performance to this revised plan has been quite good. The 
current assessment of JWST's status is that integration and 
test will take significantly longer than planned. The result is 
a launch schedule delay and the consumption of most of the 
remaining funding resources. In my opinion, the launch date and 
required funding cannot be determined until a new plan is 
thoroughly developed and verified by independent review.
    The bold leadership I spoke of earlier is required to 
assure that risk is not added to the program while trying to 
minimize the schedule and cost impacts. JWST is at a point in 
this development where the only criterion that is important is 
mission success. Every appropriate thing that can be done to 
maximize the probability of success should be done. At this 
stage of the project, a few extra days or weeks or even months 
of schedule delay or the expenditure of some additional dollars 
is a small price to pay to assure success of a mission as 
important as JWST.
    Turning to WFIRST, it was the top priority mission in the 
2010 Decadal survey. It was defined as a significant scientific 
mission with medium cost and risk. However, WFIRST has had 
requirements creep to the degree that medium cost and risk no 
longer applies. Each of the added requirements has contributed 
to the scientific value of the mission, but at a cost. The cost 
is additional risk, cost, and a potential erosion of program 
balance that was so strongly emphasized in the 2010 Decadal 
survey.
    The bold leadership I spoke of earlier is required to 
assure that the most comprehensive and scientifically valuable 
Astronomy and Astrophysics Program, including WFIRST, is 
implemented. As the Decadal survey's highest priority, WFIRST 
must be successfully completed. The good news is that WFIRST 
has not yet reached Milestone B. All requirements are currently 
controllable. NASA is to be congratulated for taking an 
important step with the establishment of the WFIRST Independent 
External Technical/Management/Cost Review. This review has 
effectively defined the scope, cost, and risk issues for 
WFIRST. The next step is to decide the scope, cost, and risk 
appropriate for a top priority flagship mission that is 
consistent with a balanced Astronomy and Astrophysics Program.
    I want to emphasize that there is no cause for panic. What 
is transpiring is a perfectly healthy process to assure that 
the scope, cost, and risk are appropriately defined prior to 
proceeding past Milestone B.
    Many studies have shown that the two most significant 
causes of cost growth and schedule erosion are failure to 
budget to the most probable cost and failure to control 
requirements. The history of JWST has been plagued with the 
failure to budget to the most probable cost. This problem has 
been true for many space programs. NASA has largely corrected 
this problem by implementing a policy that requires statistical 
and independent cost estimating and budgeting to the most 
probable cost which NASA has defined as 70/30.
    WFIRST has been plagued with continual requirements creep. 
The implementation of a comprehensive, independent requirements 
review prior to Milestone B, followed by a rigorous decision 
process, will mitigate this issue. The process being 
implemented for WFIRST should become standard for all major 
NASA projects.
    I believe NASA has the ability to manage large space 
telescope projects. Implementing statistical and independent 
cost estimating followed by budgeting to the most probable cost 
is a major improvement. Prior to Milestone B, conducting an 
independent, external review of requirements, cost and risk 
that is followed by a decision process that assures the mission 
is consistent with the Decadal survey including a balanced 
scientific program is equally important. Following Milestone B, 
requirements must be rigorously managed to prevent requirements 
creep.
    Thank you.
    [The prepared statement of Mr. Young follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Babin. Thank you, Mr. Young. I appreciate your 
testimony. I now recognize Dr. Mountain for five minutes to 
present your testimony.

                TESTIMONY OF DR. MATT MOUNTAIN,

             PRESIDENT, ASSOCIATION OF UNIVERSITIES

                   FOR RESEARCH IN ASTRONOMY

    Dr. Mountain. Mr. Chairman and Members of the Subcommittee, 
Chairman Smith, thank you for the opportunity to testify.
    These are exciting times. The progress of science and 
technology that's been under the purview of this Subcommittee 
and the Science Committee overall has been quite 
transformative.
    We now have the potential, for the first time in human 
history, to answer a profound question that's haunted us for 
millennia: Are we alone in the universe? We are at a unique 
point in our history.
    As we've heard from Dr. Zurbuchen, we know almost every 
star we can see has a planetary system. We heard from Chairman 
Babin what incredible things happened down at the Johnson Space 
Center where, through a hurricane, we showed the largest space 
telescope mirror ever built can be made to work at deep space 
conditions.
    Consequently, we now know how to build future telescopes, 
which could have the power for the first time to detect the 
faint fingerprints of life imprinted on a planet going around 
another star. And because of investments made by the National 
Science Foundation on the Gemini Telescope and NASA at JPL and 
elsewhere, we can now use coronagraphs to suppress the light 
from stars and allow us to actually see other solar systems. 
And we hope to fly the first truly advanced coronagraph on 
NASA's WFIRST mission, laying the technical foundation for 
imaging Earth 2.0 around another star.
    We can now bring all of these three advances together, 
combined with NASA's new SLS capabilities to launch a space 
telescope that could detect the signs of life on an exoplanet 
nearly 200 trillion miles away. This would have been science 
fiction a decade ago. Today, NASA, in one of its four studies 
for future advanced space observatories, is looking at a large, 
15-meter diameter ultraviolet optical infrared telescope we 
ungainly call LUVOIR, which, with the right commitment, could 
be ready for launch by the early '30s.
    Now, why is such an ambitious telescope with a mirror 
almost three times the size of James Webb required? First, we 
have to realize how faint another earth orbiting a neighborhood 
star would be.
    This image, which you can see from here, of course, was 
taken by NASA's Cassini spacecraft. We already see at the 
distance of 900 million miles--all we see is a faint, blue dot. 
That of course is us. At a distance of over 200 trillion miles, 
that's over 30 light years away, an Earth-like planet is an 
incredibly faint object. In fact, fainter than the faintest 
galaxy in this Hubble deep field.
    And then we have to understand what we're looking at. You 
think with 10 to the 23rd stars in the universe--that's one 
with 23 zeros after it--you would think that life exists 
somewhere else. Statistically that should be the case. However, 
if you talk to biologists, these optimistic statistics tell us 
not so fast. The only place we know life exists is here on 
Earth. And the only way to actually determine if life exists 
elsewhere, to find out how unique we actually are, is to go out 
for ourselves to see. And that is exactly what NASA now has the 
capabilities to do.
    But finding one Earth-like planet won't be enough. We 
already know two Earth-like planets in our own solar system 
where there are no visible signs of life, Venus and Mars.
    So we're going to have to examine hundreds of exoplanets 
hunting for those faint signatures of life to find out if 
habitability exists. If there are habitable planets orbiting 
around stars near a sun, telescopes like the LUVOIR concept 
will certainly find at least one. If a LUVOIR does not detect 
any signs of habitability, we will know that life as it exists 
on our home planet is extremely rare. This, too, would be 
profound if a somewhat lonely discover for humanity.
    NASA and uniquely this nation has laid the foundation, both 
scientifically and technically, for such a transformative tool 
for space astronomy. And this is a telescope we can actually 
now build because of those investments. And it's important to 
state without the leadership of NASA's Space Mission 
Directorate, exemplified by Dr. Zurbuchen, and with the support 
of committees like these, none of this would be possible. We 
would not be sitting here today making this case.
    So let me make an audacious claim, that the discovery of 
extraterrestrial life would profoundly change history.
    Apollo 8's iconic image on the left of the earth from the 
moon established the United States as the leader in space, 
science, and exploration that inspired every generation since, 
including myself. The discovery of a living planet elsewhere in 
our galaxy, like this artist concept on the right, would have 
as profound an impact on the 21st Century as Neil Armstrong's 
first step would have on the moon. And it is this quest that 
only NASA is capable of doing, recognizing this. This Committee 
and Congress added the search for life's origins, evolution, 
distribution, and the future of the universe to NASA's 
Authorization Act.
    We can build on this vision. We can carry the spirit of 
Apollo into the galaxy. And let me briefly finish. As Carl 
Sagan so eloquently said, ``When our far descendants perhaps 
centuries, even millennia in the future, look back from their 
new home planets and hunt for the pale blue dot in the sky, 
that was us. They will wonder how humble and fragile were our 
beginnings, how many rivers we had to cross before we found our 
way.'' With American vision, with American leadership and 
optimism, we can find our way. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Mountain follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Chairman Babin. Thank you very much. Now I'd like to 
recognize Dr. McKee for your testimony for five minutes.

                 TESTIMONY OF DR. CHRIS MCKEE,

           PROFESSOR EMERITUS OF ASTRONOMY, PHYSICS,

              UNIVERSITY OF CALIFORNIA, BERKELEY,

        ON BEHALF OF THE NATIONAL ACADEMIES OF SCIENCES,

                    ENGINEERING AND MEDICINE

    Dr. McKee. Chairman Babin, Ranking Member Bera, Chairman of 
the Committee, Mr. Smith, and Ranking Chair Johnson, thank you 
very much for the opportunity to appear before you today in my 
capacity as a member of the Committee on Astronomy and 
Astrophysics, the CAA, of the National Academies of Sciences, 
Engineering and Medicine. CAA is one of five subcommittees of 
the Academies' Space Studies Board that span the science 
disciplines supported by NASA. Each of the five subcommittees 
is charged to assist the federal government by providing advice 
on the implementation of Decadal survey recommendations. As you 
know, the National Academies' Decadal surveys, which are 
mandated by law, provide NASA with consensus advice from the 
scientific community on proposed science priorities for the 
decade ahead.
    I have the honor of serving on the CAA, and I was also one 
of the co-chairs of the 2001 Decadal survey in astronomy. The 
highest recommendation in our report was the James Webb Space 
Telescope, JWST, a truly remarkable feat of engineering that is 
expected to deliver ground-breaking scientific capability 
beyond that envisioned when we recommended it.
    Chairman Babin, I would like to thank you and the Committee 
for giving me the opportunity to present to you today some of 
the perspectives on the status of NASA's program in 
astrophysics, drawing in particular on the Academies' 2016 
report, New Worlds, New Horizons: A Midterm Assessment. This 
report concluded that already in the first half of the decade, 
scientists and teams of scientists working with these cutting-
edge instruments and with new capabilities in data collection 
and analysis have made spectacular discoveries that advance the 
NWNH vision.
    While these discoveries are really remarkable, the fact 
that they occurred is not. The Congress, the executive, and the 
research community have relied on the independent and non-
advocacy convening power of the National Academies to develop a 
national consensus on which science space missions NASA should 
pursue. This process, over a period of nearly 60 years, has led 
to the United States developing clear leadership across all the 
fields of space science. This is why the Congress has 
repeatedly instructed NASA and the executive to use the 
Decadals as the foundation of the agency's strategic planning 
in space science.
    An essential feature of the Decadal process is it involves 
a broad cross-section of the community. In the case of the 2010 
Decadal survey in astronomy and astrophysics, the Academies 
appointed nearly 200 astronomers to the survey committee, the 
supporting panels, and the working groups. Hundreds of 
additional astronomers provided input. In fact, I would venture 
to guess that a significant fraction of the entire astronomical 
community participated.
    The committee then undertook the hard and painful task 
which was necessitated by the relatively severe financial 
constraints under which the agencies were expected to have to 
operate of prioritizing the many exciting and realizable 
activities presented to it.
    Mr. Chairman, today NASA is implementing the Decadal 
survey. The Wide-Field Infrared Survey Telescope, WFIRST, which 
was the 2010 Decadal's highest-ranked large space telescope is 
``designed to settle essential questions in both exoplanet and 
dark energy research and will advance topics ranging from 
galaxy evolution to the study of objects within our own 
galaxy.''
    The midterm report underscored the continuing scientific 
case for the pursuit of this mission. The report noted that 
implementation of WFIRST with a larger mirror than it 
envisioned at the time of the Decadal's prioritization with 
larger infrared detectors, and with the addition of a 
coronagraph makes WFIRST an ambitious and very powerful 
facility.
    However, because the risk of cost growth in WFIRST could 
distort the NASA program balance and limit options for the next 
Decadal survey, the midterm report called for an independent 
and technical, management, and cost assessment of WFIRST. That 
assessment has been carried out, and the descoping effort is 
now under way.
    Meanwhile, it's also worth noting that the midterm report 
endorsed NASA's plans for executing the second priority 
recommendation of the 2010 Decadal, the enhancement of the 
Explorer program. The Explorer program is currently supporting 
the development of the Transiting Exoplanet Survey Satellite, 
TESS, which is scheduled for launch next March. NASA is also 
implementing the third and fourth high-priority recommendations 
in partnership with our European colleagues at ESA through 
participation in the Athena x-ray telescope and in the LISA 
gravitational wave observatory.
    LISA will open a new window on the cosmos by measuring the 
ripples in space-time produced by the merger of black holes 
which are far larger, more massive than can be detected with 
the NSF-supported LIGO facility. That facility has confirmed 
Einstein's theory of gravity and solved the mystery of the 
source of many of the elements in the periodic table beyond 
iron, such as gold and uranium.
    The next Decadal is expected to start in about a year's 
time, and at the CAA we have heard how NASA is supporting teams 
of astronomers and engineers to develop mission concepts for 
both flagship missions and moderate-scale missions. This 
methodical approach to preparing the community for the Decadal 
is, in my personal opinion, vitally important. The CAA is at 
the same time preparing to release the first call for white 
paper inputs from the community in advance of the survey so 
that when the chair is appointed, she or he will have fresh 
community input on the science what is nominally called Astro 
2020.
    Mr. Chairman and the members of the Committee, the bottom 
line result of the Decadal survey process in astronomy and 
astrophysics and indeed in all the scientific fields supported 
by NASA is that the United States has reaped the benefits of 
this community-based process that the Academies conduct on 
behalf of the nation under its unique charter from Congress. 
I'm here today to discuss why this process works as well as it 
does and to answer any questions you may have. Thank you.
    [The prepared statement of Dr. McKee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Babin. Thank you very much for your testimony, Dr. 
McKee. The Chair would like to recognize himself for five 
minutes for questions.
    Dr. Zurbuchen, NASA indicated that the delay to JWST is a 
result of issues identified in integration and testing, but 
there was also a potential conflict in French Guiana with the 
European BepiColombo mission. Why was the decision made to 
launch the $8 billion JWST on the European Ariane 5 rocket 
instead of a reliable U.S. launch vehicle? Was cost the only 
consideration? And what are the risks associated with the 
transporting of JWST to the European launch site located in 
South American French Guiana?
    Dr. Zurbuchen. Thanks for your question, Mr. Chairman. Part 
of the decision to go with this other launch vehicle, of 
course, was cost. And at that moment in time, you remember of 
course, I was not sitting here when that decision was made. 
Cost was an important factor but so was international 
collaboration that's really part of the James Webb Space 
Telescope. It's part of the telescope itself and instruments. 
We have important international collaborations that really 
contribute to the leadership that we have in space 
astrophysics. So we don't believe that there's a conflict of 
leadership for the United States and some of these 
collaborations.
    I will submit, if so desired, Mr. Chairman, more 
information for the record----
    Chairman Babin. Yes.
    Dr. Zurbuchen. --on the details of that decision and all of 
this. You should know that the path to that launch site has 
been under consideration, and in detail, I've heard a briefing 
for every part of that. And we understand what the risks are. 
Indeed though I'm comfortable with it.
    Chairman Babin. I understand they're going to have to even 
change bridge heights and things like that. Is that the case?
    Dr. Zurbuchen. There's a number of things that we have to 
do for testing with Webb. Some of the tests we actually wanted 
to do in some other districts we didn't do because of bridges. 
In some cases, yes. Some bridges might be lifted or some roads 
will be enlarged for that. Again, I'll provide the details.
    Chairman Babin. Right. One of the lessons learned that GAO 
highlights is the need to manage cost and schedule performance 
for large projects to limit the impacts to the entire science 
mission portfolio. What ways can NASA balance its portfolio 
better and ensure that problems and large programs do not 
overwhelm the smaller ones without losing sight of science 
objectives, Dr. Zurbuchen?
    Dr. Zurbuchen. I believe that what we did with WFIRST is 
exactly what we should be doing to ensure that balance. I mean, 
I'm committed to keeping that balance in place through the 
astrophysics portfolio as well as the other disciplines where 
similar recommendations are provided from their respective 
Decadals. And I believe that what is required, especially prior 
to Key Decision Point C which is what Tom Young talked about, 
it's absolutely important to create management processes to 
make sure that these missions don't blossom without boundary, 
without limit, into bigger missions. So the independent review 
as well as the action that I took is precisely motivated, not 
because of anything that we don't like about the mission, but 
motivated by the importance of creating that balance and 
keeping it for the years to come.
    Chairman Babin. Okay. Thank you. Now, Dr. McKee, the cost 
estimates for both JWST and WFIRST increased drastically from 
the time the Academies recommended them as part of the Decadal 
survey. Does the Academy provide any recommendations on the 
maximum cost a program should grow to before it compromises 
other astronomy and astrophysics priorities? And does the 
Academy recommend any capabilities to descope if problems are 
encountered during formulation or development?
    Dr. McKee. Let me begin by discussing the first of the 
projects you mentioned, James Webb. At that time, we did not 
have the cost control measures that NASA has implemented since, 
and as I think has been noted, there was a drastic increase in 
the overall cost of that mission.
    At the time of the 2001 Decadal survey, we did not 
anticipate such a cost growth. By the time of the 2010 Decadal 
survey, there was a much greater awareness of the impact of 
these large missions, and as a result, that Decadal survey 
considered several different scenarios for the budget of the 
program. However, to my knowledge, they did not explicitly put 
in any, you know, hard-and-fast rules as to how you would 
descope.
    As the issue of the problems come up with the NASA budget, 
the importance of maintaining a balanced program is very high 
on the priority list for the Academies, and they have been, you 
know, working with NASA to try to maintain that.
    Chairman Babin. I have several more questions, but I'm out 
of time. So we're going to go to the gentleman from California, 
the Ranking Member, Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. In my opening comments I 
talked about, you know, just gazing at the sky and, you know, 
what Hubble allowed us to do was those fuzzy patches that we 
see out there prove that those galaxies full of millions or 
billions of stars existed. It also proved that the universe was 
expanding.
    I guess, Dr. Zurbuchen, as I'm thinking about, you know, 
TESS, James Webb, and WFIRST, science building on itself, I 
just want to make--with TESS, we'll do that all-sky survey. 
We'll learn more about exoplanets and find more exoplanets. 
With James Webb, am I understanding this correctly, we'll look 
sometimes backwards in time and look at star formation and, you 
know, trace the evolution of these galaxies from birth to death 
and learn much more about our universe? And then in the WFIRST 
program, you know, this dark energy that is expanding our 
universe and the purpose of WFIRST is to better understand that 
dark energy as well as to continue to learn more about the 
exoplanets that are out there as, you know, we search for life, 
as we search for, you know, what else is out there. Am I 
thinking about that correctly? One building on the next, each 
mission informing the next mission. For those folks that are 
watching at home, because I know they're riveted to their 
televisions, you know, trying to figure out where we go next, 
and so if we're building one mission on the next, if we think 
about the Decadal survey which is our objective way of--you 
know, as much as Decadal informed us to do James Webb, Decadal 
informed us that we should focus on WFIRST. You touched on the 
four possibilities going into this next Decadal survey. And 
would you briefly just go over what those four----
    Dr. Zurbuchen. First of all, Congressman, you're really 
well informed about how these spacecraft relate to each other 
and how they're really building on top of each other. You could 
not imagine a WFIRST without the Hubble being there, kind of 
doing that kind of work because what we're really doing is 
looking at the big-data version of the Hubble which is 100 
times bigger in terms of many dimensions, but including the 
data that are coming down for us to mine. And we look at these 
large-scale structures that are out there and talk about the 
science overall. What is the universe made out of, you know? 
Things we call dark just because we don't know what they mean, 
really.
    So the next four that are under consideration, first of 
all, is a concept called HabEx. You heard, you know, Dr. 
Mountain talk about LUVOIR. Just like LUVOIR, HabEx is really 
focused on habitability. So it's focused on looking at, with a 
slightly different concept but it's looking at emissions that 
come in atmospheres from planets that would tell us about both 
the physics of these atmospheres but also whether there's 
something there that could hint towards the presence of life.
    So those are the two that are there, HabEx and LUVOIR. And 
Lynx is the next generation x-ray surveyor. So there what we're 
looking at is really the energetic part of the universe, 
really, in x-rays and gamma rays, looking towards the next 
generation, looking at these physical processes that--you 
talked about Chandra or it was talked about, looking at the 
next generation of physical processes that help us understand 
how energy actually gets created in some of the weirdest places 
in the universe.
    And then the final one is Origins Space Telescope. It's a 
system that's following matter around, dust, and elements of 
the type that we discussed as part of, you know, this unique 
event there. You know, like how are these transferred around, 
really. Talk about kind of the origins of these contributions 
to stars and then what of course could create habitable planets 
as well.
    So those are the three missions looking at a variety of 
spectral ranges, looking at the variety of centers that 
actually where these things are rooted.
    Mr. Bera. So all of these, in an ideal world, we'd have 
unlimited resources and all of these missions would provide us 
vast knowledge and help us. And again, our way of guiding 
Congress as well as NASA in a purely objective way is to do the 
Decadal survey, to take this group of scientists and experts, 
you know, who have much more knowledge than--we're a pretty 
smart body I think--but who have much more knowledge and 
expertise than we do and give us guidance. Is that an 
appropriate, you know, high level----
    Dr. Zurbuchen. Absolutely, one of the jobs that I don't 
have is to prioritize which one is the most important one. And 
you don't want me to have that job. And the simple reason for 
that is if there's another person sitting in this chair, the 
whole strategy changes, you know? So we really believe and I'm 
a strong believer in the wisdom of having a process like the 
National Academies' insights really driving us because what 
that creates is constancy of purpose and it creates success, 
consistency, projects that actually exceed the timeframe of any 
one of us in any of our respective positions.
    Mr. Bera. And would you say the Decadal survey has served 
this body as well as NASA and the scientific community well?
    Dr. Zurbuchen. I really do believe so. And you should know 
before I went to NASA, I was actually actively involved in some 
of this advisory structure and saw from the inside the kind of 
high quality of deliberation and the high quality of decision 
making that's going on there. So I really believe in it and I 
rely on it every day.
    Mr. Bera. Great. Thank you. And I'll yield back.
    Chairman Babin. I now recognize the gentleman from Alabama, 
Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. My questions are 
directed at Dr. Zurbuchen, but if anyone else wants to chime 
in, feel free. In September 2017, following a schedule 
assessment of remaining integration and test activities, NASA 
announced that it was planning to launch the James Webb Space 
Telescope between March and June of 2019, a five- to eight-
month delay from the previously planned October 2018 launch 
readiness date.
    Given current technical challenges, new information gained 
from recent deployment tests of the sun shield and remaining 
work to complete, to what extent is the current expected launch 
readiness window of March 2019 to June 2019 achievable?
    Dr. Zurbuchen. At this moment in time, with the information 
that I have, I believe that it's achievable. But I actually 
believe what Mr. Young told us about an independent review is 
exactly what we should be doing. And frankly, I have directed 
the team to do just that in January. The reason I do it in 
January and not right now is we're going through fold number 
two. Remember, what we're really spending time on right now is 
practicing how to unfold. We want to get this right. And so 
basically we went through fold number one which took us a lot 
longer, which to a large extent, together with the propulsion 
system issue also at the contractor, basically contributed to 
the majority of the delay. Actually, the only real, you know, 
delay that was on the outside of the schedule reserve that we 
had----
    Mr. Brooks. Dr. Zurbuchen, you've already answered my 
question.
    Dr. Zurbuchen. Yes.
    Mr. Brooks. I wasn't asking for the causes of delay to 
date, just what the future looks like.
    Dr. Zurbuchen. Thank you. I apologize.
    Mr. Brooks. Next, when will the agency announce a specific 
launch readiness date within this window and how will it 
determine that this new launch readiness date is realistic?
    Dr. Zurbuchen. I will submit the exact date for the record 
because I want to have a schedule from our project office to 
really make sure that the review is actually, can be done at 
the right time. I'll submit it for the record. My guess is kind 
of in January, February timeframe but I don't want to commit to 
that before I really talk to everybody involved.
    Mr. Brooks. Thank you. Next, the Government Accountability 
Office testimony states that the Transiting Exoplanet Survey 
Satellite, also known as TESS, program no longer has cost 
reserves to cover a delay past March of 2018. What does that 
mean for the project and how does NASA plan to fund a test 
launch if it is delayed past March 2018?
    Dr. Zurbuchen. We expect to solve the problem, through the 
processes that we have to deal with this kind of unexpected 
expenditure and basically deal with any delay that will come 
because it will not be from the fault of the project itself. It 
will come from the outside.
    Mr. Brooks. In March next year, NASA is planning to launch 
TESS on the Block 4 version of the SpaceX Falcon 9 rocket. 
SpaceX has experienced two mishaps in the previous two years 
with its Falcon 9. In June 2015, a Falcon 9 rocket was 
destroyed while it was carrying a Dragon cargo spaceship loaded 
with supplies bound for the International Space Station, and in 
September 2016 a Falcon 9 exploded on the launch pad while 
loading fuel for a routine engine test, destroying a commercial 
satellite. In light of these mishaps, what remains for NASA to 
certify the Block 4 version of the SpaceX Falcon 9 rocket for 
the purposes of launching the TESS satellite?
    Dr. Zurbuchen. I was updated earlier this week that the 
certification of meetings are scheduled for early next year and 
basically involved a series of interactions with the contractor 
and external views of various systems and subsystems. At the 
completion of that, I really trust the part of our agency 
that's doing that. I will ask them directly. Is it safe to 
launch? I'm waiting for that process to come to its conclusion.
    Mr. Brooks. Do you have any concerns or reservations that 
the Block 4 version of the SpaceX Falcon 9 rocket will not be 
certified in time for TESS to launch in March of 2018?
    Dr. Zurbuchen. At this moment in time, I don't have any 
such concerns.
    Mr. Brooks. All right. Thank you, Mr. Chairman. I yield 
back the balance of my time.
    Chairman Babin. Yes, sir. Thank you very much. Now, Ms. 
Johnson has left. I recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thank you, Dr. Babin. So I want to start 
quickly with starshade, because I do have a prop. This is like 
that, okay? So it helps to--let's go this way. No, that's 
better. I shouldn't put it in front of my face. That's not a 
good idea.
    But Dr. Zurbuchen, can you tell me about starshade and 
about the use of both the Academy as well as universities in 
working with NASA to make sure that starshade provides value 
and helps us see even more distant objects?
    Dr. Zurbuchen. The starshade technology together with the 
coronagraph technology--of course, you're aware that starshade 
technology was invented in Colorado.
    Mr. Perlmutter. At the University of Colorado, yes.
    Dr. Zurbuchen. Exactly.
    Mr. Perlmutter. Go Buffs.
    Dr. Zurbuchen. I met the guy. He's an amazing guy, right, 
because it's more than one invention, of course. It's not the 
only one. But together with coronagraph technology, starshade 
technology is a really good way of actually covering up the 
light of the star to actually blend out that flood of light so 
we can see the few photons that the faint light that comes from 
planets. And so basically in many ways it's a very elegant 
process. It's basically a big shade of the shape that you had 
there that is perhaps 30 meters or even larger, depending on 
the geometry, flying 10,000 kilometers ahead of the telescope 
at a really accurate location and actually use the properties 
of optics to blend out the star at the telescope to very, very 
high precision. Coronagraphs are very different. It's much more 
like a thumb and the camera, like we use when we look at the 
sun. It's taking light away, internally. Again, a lot of 
advances are being made there, some advances even today.
    So both of these technologies are being developed right now 
through the technology investments in a variety of places 
including universities, including within NASA or the 
organization that Dr. Mountain leads to really look at what the 
right way is. My prediction is as we go forward in this very 
new field, that on a timescale of five to ten years, if we have 
a hearing like this again, there will be even additional 
technologies that will be proposed, additional ways to solve 
this really important problem.
    Mr. Perlmutter. So and I would just encourage you and I 
imagine Dr. McKee and Dr. Mountain would agree to continue to, 
you know, partner with the Academy, with the universities as 
you expand this science.
    Now, what I really want to talk about, I'm going to focus, 
Mr. Young, to you and to Ms. Chaplain. Dr. Mountain mentioned 
earlier a number with 23 zeros behind it. The number I have in 
mind isn't that big but it's big. So right now we're dealing 
with a tax reform bill, the deficit of which is $1.5 trillion. 
That's what the Budget Office predicts from the House version 
of that. And it's a number that has 12 zeros after the first so 
12 digits.
    So just, Ms. Chaplain, help me with the math. You've helped 
me with other budget issues in the past. And so do you know 
what the NASA budget is this year?
    Ms. Chaplain. The budget request is about $19 billion.
    Mr. Perlmutter. All right. So let's make it easy. Round it 
up to 20, okay? $20 billion. That $1.5 trillion hole in the 
deficit is 75 years' worth of NASA's budget, okay? Let's go to 
something else. How about -- you said we've got a potential or 
we have a cost overrun on James Webb, initially a $5 billion 
projected project. Now it's up to $9 billion. How many James 
Webb telescopes could we build for this budget loss we're going 
to take of $1.5 trillion? Can you do the math in your head?
    Ms. Chaplain. I probably can't do it that quickly, but it's 
a lot of telescopes.
    Mr. Perlmutter. Well, let's say the telescope, it booms up 
to $10 billion in costs. That's 150 of those.
    Ms. Chaplain. Yeah.
    Mr. Perlmutter. Okay? Now, you know what's near and dear to 
my heart? It's getting our astronauts to Mars, and you and I've 
had a lot of conversations. Mr. Young, you and I have had a lot 
of conversations. And at one of our hearings, the number of 
$200 billion over the next 16, 17 years was suggested by NASA.
    So let's do the math on that one. How many times could we 
go to Mars for this deficit that's coming from this tax bill 
that the republicans are proposing? I'll do it. It's a 
rhetorical question but about eight. And that's starting from 
scratch.
    So these numbers are big, and we need to manage these 
projects the best possible way we can. But on the other hand, 
when we do things like we're doing, this week and over the next 
few with this tax bill, we potentially hurt your agencies and a 
lot of others. And we don't need to inflict wounds on ourselves 
like that. And with that, I yield back.
    Chairman Babin. Thank you, Mr. Perlmutter. I would remind 
the crowd out here that there's some of us hoping that we will 
have enormous growth with this tax bill.
    We will now go to the gentleman from Florida, Dr. Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman. I'd like to 
turn our attention to some of the life sciences that NASA gets 
involved in. In the '18 appropriations bill as marked up by the 
Committee, we inserted a provision for NASA to spend at least 
$10 million on life detection technology. Can you explain 
briefly, whoever is the right person here, for what are we 
using for life detection technology? Maybe tell me a little bit 
about how that compares to the older and what we're developing, 
briefly, five minutes.
    Dr. Zurbuchen. Why don't I get started? So part of the life 
detection technologies are actually the type of technology we 
already talked about here. So it's basically starshade. It's 
coronagraph technology as well as other promising approaches 
that would really help us to actually collect a spectrum of the 
type that was shown here by Dr. Mountain, like a spectrum that 
would help us read, if you want, a fingerprint of life 
elsewhere. And so, it's that kind of technology that we're 
currently investing in and are committed to doing so in the 
future.
    Mr. Dunn. All right. So life takes some pretty surprisingly 
different shapes and forms. It can be a little hard for us 
right here on Earth to decide what is life and what isn't life. 
I wonder if we are needlessly or unnecessarily limiting the 
search for the type of lives we might find on an exoplanet.
    Dr. Zurbuchen. I think it's a really hard question you're 
asking, what we know about life is what I would always talk of 
in science language is an N = 1. So we have exactly one type of 
life and many variations thereof.
    And so basically what we're doing as scientists--and 
there's people who are scholars in this, perhaps even at this 
table--what we're doing is we're going the other way and really 
asking what does the universe provide us with from in many 
cases basic principles, from the early universe. But how also 
how stars work? What are the building blocks and how can life--
what would be the principles that we would be using from these 
building blocks that basically would actually create 
signatures, in many different scenarios, that are actually 
different than ours that we could really see.
    So it's not so much how exactly what life is but what life 
does in an atmosphere and so forth.
    Mr. Dunn. That's good. So can you explain why it is to the 
public in general, why are we so fascinated with looking for 
life? And I don't want a long, I don't want an essay. Have you 
got a sound bite for me back home?
    Dr. Mountain. For millennia, we've wondered where origins 
come from. Are we alone? I mean, for four billion years we've 
looked up at the sky and wondered are we alone? And that 
loneliness may come to an end if we discover that we are no 
longer alone. That would change the way we think about biology, 
change about our civilization. And if we find nothing, think 
how precious this planet is.
    Mr. Dunn. So one of the ways we can spend some of this $10 
million is looking for life on Mars with whether manned or 
unmanned missions we send there. I know we've done that in the 
past. I know that the answers have been cloudy, murky. But I 
think there's ways to rather inexpensively clean up those 
experiments and rerun them with some several Mars landers that 
are coming right at us.
    Let me--because of time, I'm going to skip to the next 
question. So we've proposed four telescopes here, gentlemen. So 
why four? Why do we need four different scopes to look at the 
exoplanets.
    Dr. Zurbuchen. I just want to make sure. I assume you're 
talking about telescope studies for the future, the four?
    Mr. Dunn. Right, yeah.
    Dr. Zurbuchen. Yeah. So there, my full expectation is that 
through the Academy process, prioritization will come. So by us 
focusing on four, basically what we hope to do is provide a set 
of options for the Academy to really put the pieces together 
and actually see what's possible, really translate, if you 
want, scientific aspiration into some engineering language, and 
help from that, based on the scientific knowledge we have at 
that point during the Decadal----
    Mr. Dunn. Are you telling me you might cut down to less 
than four, one, two, three?
    Dr. Zurbuchen. One will be the first one out of the four. 
We will not do four at the same time.
    Mr. Dunn. Oh, I understand. It just seems funny to be 
planning for four all at once. So in the few seconds left, why 
are we launching the James Webb on the Ariane? I understand the 
cost things. Is it just cost? Why are we using a European 
missile rather than a good, old-fashioned American rocket?
    Dr. Zurbuchen. It's a really good question. I already 
promised to submit that answer for the record and really go 
through the history of this. I really--I mean, I told you what 
I know from that.
    Mr. Dunn. So, good. Yeah. So I'm a physician. I'd love to 
get involved with you guys and your life science and your proof 
of life if you will on whatever planets we land on. And I yield 
back. Thank you very much.
    Chairman Babin. Yes, sir. Thank you. More Democrats? Let's 
see, Mr. Higgins from Louisiana for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Chairman Babin. Sir.
    Mr. Higgins. Dr. Mountain, my questions will be directed to 
you. I'd like to jump right into the next generation of space 
telescope and space technology as you envision it from your 
unique perspective, sir.
    Over the last several years, microbial life, 
microorganisms, have been discovered to be quite resilient 
living in space on the exterior of the hull of the 
International Space Station and then experiments within 
minerals and rocks. Do you envision the next generation of 
search for life throughout the cosmos with our next generation 
telescopes, do you envision them to be able to measure that 
spectrum of the wavelengths that we study and search for 
microbiotic life? Given the fact that the Hubble's been up 
there for quite some time and future telescopes have been under 
development for quite some time, and yet it's only recently 
that we discovered microorganisms on the hull of the 
International Space Station itself.
    Dr. Mountain. And again, I can refer to my colleague, Dr. 
Zurbuchen. I mean, it's a very good question. So the issue is 
that all those microorganisms, whether they be in the space 
station or in the depths of the Chernobyl reactor or on these 
deep sea vents, they've all come from one place. It's Earth. 
This N = 1 problem. And we know that this type of bacteria 
affected the atmosphere of our Earth roughly a billion years 
ago and created the oxygen that we now breathe. And so that was 
the signature that, if we had been on another planet and looked 
back, we would have seen. The problem is Earths, as I've tried 
to say, are very faint. We haven't had the power and the 
capability to look at another Earth-like planet. And I think 
that the power of this whole idea for NASA's perspective is, it 
isn't just looking around other stars. NASA wants to go to 
Europa. It wants to put people on Mars. All of those are 
potential places where life could have independently come, not 
just come from our Earth.
    Mr. Higgins. Specifically speaking of next-generation 
telescopes, which is trying to stay within the parameters of 
the purpose of this particular committee and discussion and the 
search for life by investing massive sums of the people's 
treasure, we're discussing microorganisms and the search for 
them. What about silicon-based life, which has been a great 
deal of scientific discussion about that recently. And do you 
envision in next-generation telescopes the ability to detect 
silicon-based life?
    Dr. Mountain. Again, as Dr. Zurbuchen said, we don't yet 
know what silicon life would look like which is why we believe 
that the only way to look at this is to analyze the whole 
spectrum of another Earth-like planet to see things we don't 
expect and then try and build up models.
    What we understand about life is that carbon and water and 
oxygen are pretty essential. We know, that we don't yet know 
what silicon life would look like. I don't know if, Thomas, you 
had anything further. But we haven't yet found a way to 
recognize what silicon life would be like.
    Mr. Higgins. Thank you for that answer. In the interest of 
time, I'd like to jump into what your thoughts are regarding 
dark matter or dark energy as they relate to current and next-
generation telescopes. Dr. Mountain, again, the telescopes 
we're discussing investing massive amounts of money in will be 
embedded within the dark energy or dark matter that we call it 
that because we don't know what it is. Do you envision this 
next generation of investment to be able to measure that in 
some way, to give us some answers as a people, be we Democrats, 
Republicans, or anything in between? We would sure like to know 
what dark energy and dark matter is.
    Dr. Mountain. As would we scientists. I mean, we are in 
that fortunate or incredible time where we're using telescopes 
like the Hubble and other telescopes. We've discovered we 
haven't understood where the matter comes from. That's dark 
matter. We haven't understood where the dark energy comes from. 
That's 75 percent. And that mystery is what's driven missions 
like WFIRST. We're hoping to be able to measure across the 
whole sky these very weak effects and give us real insight. 
What physics are we missing? How is it that we sit in 2017 and 
we have to say to you we don't understand what 95 percent of 
the universe is?
    Mr. Higgins. Exactly. And Mr. Chairman, my time has 
expired. But should any of the other panel members have input, 
please, we would like for you to submit your answers in writing 
regarding the considerations of dark energy. I yield back.
    Chairman Babin. That's very fascinating. Thank you for 
those questions and answers. Absolutely. I think that's the 
first time I'd heard of silicon life. I don't want to run into 
one of those critters any time soon.
    Now I'd like to recognize the gentleman from Indiana, Mr. 
Banks.
    Mr. Banks. Thank you, Mr. Chairman. Harris Corporation 
located in my district has provided vital technical support for 
both the James Webb Space Telescope and the Wide-Field Infrared 
Survey Telescope which we are very proud of, coming from Ft. 
Wayne, Indiana.
    My first question is for you, Dr. Zurbuchen. NASA has put a 
great deal of time and money into the development of the Webb 
telescope, and it has the potential to expand on the 
discoveries of the Hubble telescope. However, since it will be 
launched into an orbit that makes astronaut repair impossible, 
it's important that the complicated process of building and 
launching Webb is done the right way. Do you believe that Webb 
can be launched and deployed successfully and achieve its 
objectives?
    Dr. Zurbuchen. You're talking about--so do I believe that 
Webb can be launched successfully? Yes, I do.
    Mr. Banks. Okay.
    Dr. Zurbuchen. So I believe that the work has to be done 
from all aspects, looked at multiple times. Webb can be done 
successfully. I'm going to be really nervous during that time, 
as I always am. Every time I look at a launch now, I'm nervous. 
But yes . . .
    Mr. Banks. Okay. Good answer. The missions that we're 
discussing today are very large in scale. The large scale makes 
these missions expensive and complicated. Is there any 
consideration, Doctor, at the agency to utilize the growing 
expertise in small spacecraft to accomplish some of the goals 
being discussed here today?
    Dr. Zurbuchen. Absolutely. I mean, so there's a number of 
approaches that we're looking at, many of them actually on the 
outside of astrophysics, just because there's many more photons 
around. The light is much stronger when it comes from the 
Earth, for example, or from the Sun. And so there's a number of 
approaches that we're looking at as part of an initiative that 
I launched when I came to NASA to relook at these systems. And 
as we go forward and learn how to fly these spacecraft, perhaps 
they become more relevant for astrophysics on a timescale of 
10, 20 years. We don't know. At this moment in time, most of 
the applications are elsewhere, but even in astrophysics, we're 
starting to look at them.
    Mr. Banks. So you would agree then that we could reduce 
mission cost and duration by utilizing small spacecraft?
    Dr. Zurbuchen. In some of the cases the answer is yes, and 
in some of the cases like the one with the exoplanets, the 
bucket size--how big the telescope is is really important 
because that's the most important driver.
    So at this moment in time with the technology we have today 
anywhere, we don't know how to use small spacecraft for that 
because it's basically we don't know how to span out a mirror 
of that size. But you know, I'm sure there's smart people 
either in your districts or elsewhere that will think about 
this and really try how to use small spacecraft flying 
information or otherwise to learn how to do this. I don't know 
what's going to happen there. Right now we can't.
    Mr. Banks. Good. So it's clear that the projects we're 
discussing today have the potential for very exciting 
discoveries. Does NASA have a plan to do outreach to middle and 
high school students in order to get more young people 
interested in NASA and space exploration?
    Dr. Zurbuchen. Absolutely. We're committed to telling our 
story to all learners of all ages. And I'm personally very 
excited about middle schools and high schoolers. Of course, I 
have children that age but also just because I see how much 
knowledge like this can really impact their careers and their 
lives. So yes, we're committed. Our programs are doing that now 
and we commit to doing it in the future together with our 
partners, many of which are here at the table.
    Mr. Banks. Thank you very much. I yield back.
    Chairman Babin. Yes, sir. Thank you very much. I'd like to 
now recognize the gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. I apologize for just 
coming in now. I was chairing my own subcommittee hearing 
downstairs, so I apologize. But I will be reading your 
testimony. I think that the idea of space telescopes and also 
just the whole idea of astronomy is so important. It's hard for 
people to come to grips with how important it is for us to know 
what's going on out there because it sets down--well, anyway, I 
don't have to explain it to you. You're explaining it to me. 
But with that said, there's one element that I'd like to talk 
about, and I don't know. I understand it has not been 
discussed. And that is I think one of the things that behooves 
us to work and to have a system that we can identify things as 
far out as we can go and learn the fundamentals of the universe 
but also see if there's something out there that could be 
harmful to us. And we just had--and I don't know if it's still 
there or if it's gone by--an asteroid that was what, three 
miles wide, that was just within several million miles of the 
earth. We need to have a system that we can identify anything 
coming towards the earth that may well hit the earth at least 
five to ten years out.
    Now Erasevo telescope was almost shut down about ten years 
ago. They almost closed Erasevo, and Erasevo, it's my 
understand, is at this point essential to making sure we can 
identify an object and then track it so we know whether it's 
actually going to hit the earth or not. But we need to make 
sure that capability is built into our satellites and our 
telescopes that we're going to be putting into orbit so that 
they are also expanding our understanding of the universe but 
they're also, they are our guards. They are the sentries 
looking for danger that might be heading in our direction.
    Now, is that--I don't know if it's been discussed, but 
where do you see that in terms of our planning for what type of 
telescopes and things we will be doing in the future. And I 
don't know who to ask but whoever would like to comment on 
that?
    Dr. Zurbuchen. Congressman, the planetary defense program, 
which is what you're relating to, is part of our planetary 
division and is multi-faceted. And like you correctly said, 
Arecibo is an important part of that because it helps us 
characterize objects that are really near Earth because we can 
bounce off, you know, radiation off it and actually look at it 
at Earth. There's many other assets that we're using--both 
ground-based and space-based that are there, and actually we're 
looking as we go forward at even assets that Dr. Mountain and 
his organization are working with to really in fact provide 
that kind of information. You of course are aware of that 
interstellar object that is such a unique first that we found 
as part of such a survey, a routine survey, at NASA.
    Mr. Rohrabacher. Anyone else?
    Dr. Mountain. Again, just going outside of what NASA does, 
we are building, you know, the large synoptic survey telescope 
which will scan the whole sky every three days, and that will 
provide information that we can provide to NASA as well.
    So there is--as you can understand, there is continued 
coordination. I mean, the asteroid that came in from the 
outside was actually found by a telescope in Hawaii, ground-
based telescope initially and then followed up with NASA's 
assets including Hubble and other things. And so we are very 
aware. And of course, the wide-field survey telescope will also 
have the capability to survey wide areas of the sky. So we're 
going into this generation of telescopes that can take enormous 
images of enormous swaths of the sky which is of course what 
you need to find these rare objects that may be coming our way.
    Mr. Rohrabacher. And Mr. Chairman, I've never talked to a 
scientist who said, oh, no, we're never going to have a big 
asteroid hit the world, not one. And not one has ever said, no, 
we're not--it's impossible that we wouldn't know about it ten 
years down the road. Well, that's just not--I mean, they all 
understand that tomorrow, because of what we have not done so 
far, we could be surprised to find out that most of the earth 
would be destroyed within a short period of time, within a year 
or two.
    We need to make sure we change that reality. That should be 
one of our primary goals is that the earth isn't going to be 
destroyed, for Pete's sakes. And I think that space-based 
telescopes are going to play a major role in protecting us from 
that danger, from that ultimate danger. Thank you, Mr. 
Chairman.
    Chairman Babin. Yes, sir. Thank you. And my Ranking Member 
over here, Mr. Bera, said he wanted to ask one question.
    Mr. Bera. And I'll make it quick because they called votes. 
Dr. Mountain, you said one to the 23rd? As I wrote this out, 
that's a lot of potential planets that are out there.
    Last year Kepler discovered 1,284, and the total number of 
exoplanets that we've discovered is about 2,325, 9 of which are 
potentially in the habitable zone. So part of what we're trying 
to--the occurrence of life is a rare event, right, and just 
from my understanding, we're trying to cast a wide net to see 
as many of these planets as possible. Is that correct, to 
identify?
    Dr. Mountain. One with 23 zeros is our estimate of all 
number of stars there are to our universe. Within our galaxy, 
we believe there's 100 billion, and now from the observations 
of Kepler just by extrapolation, we believe that most of those 
have planets. What we can see with our telescopes is only out 
so far, but we believe that we should search all nearby stars 
because we believe there are a lot of planets. What we don't 
know is how many of them have life. But we are going to try 
with tests, with WFIRST, with all the things that we're doing 
with our assets on the ground we're going to try and cast that 
net as widely as we can because life may be extraordinarily 
rare. We just don't know what that number is. Biologists will 
argue that even with one to the 23rd, we could be it. I mean, 
there are good, intellectual arguments from the biology side. 
We would like to resolve that by going to observe.
    Mr. Bera. Thank you.
    Chairman Babin. Fascinating. I also have one, and I think 
Mr. Rohrabacher's got one as well. We still have about ten 
minutes. This is for Mr. Young. Would a congressionally 
mandated cost cap for WFIRST instill cost, schedule and 
requirements discipline? Would it be satisfactorily done?
    Mr. Young. I actually don't think so. I'm not a fan of cost 
caps.
    Chairman Babin. Okay.
    Mr. Young. I think the better solution is what NASA's doing 
and that is understand the requirements and the cost and risk 
and technical complexity of the requirements that exist now and 
adjust those to be what we collectively believe to be 
affordable and appropriate for WFIRST mission and then, in a 
rigorous fashion, control them as we implement the program.
    Chairman Babin. Okay. Thank you. Mr. Rohrabacher?
    Mr. Rohrabacher. Yes, and I realize that space telescopes 
are going to play a really important role in our search for 
intelligent life somewhere in the universe. We have to cope 
with the fact that we're trying to find intelligent life here 
in Washington, DC. right now so--especially on budget issues.
    I'd like to ask Dr. Zurbuchen about--what about the NEOCam 
project and how does that fit in with the space telescopes and 
the asteroids that I was talking about?
    Dr. Zurbuchen. So NEOCam is an extended Phase A type of 
project that we funded out of the Planetary Discovery Program. 
We're learning through that Phase A what it would take to get 
to the congressionally mandated numbers of covering, these 
searches that you talked about earlier within a given number of 
years. So NEOCam is one of the actual designs that will do so. 
And there's a couple other things we're looking at with also 
smaller spacecraft but very much in the spirit of NEOCam. So 
we're looking at that right now as we go forward and plan.
    Mr. Rohrabacher. But you're saying that that program is 
under consideration but not decided upon yet?
    Dr. Zurbuchen. We, at this moment in time, we don't have a 
budget line or anything at this moment in time that would 
basically allow us to fund that as part of this. Right now we 
have our planetary defense budget that you talked about 
earlier, and it's integral at over $50 million a year. And 
NEOCam, if you look at the numbers, it's closer to the half-
billion type of dollars in round numbers. Of course, it may be 
50 million less or more.
    Mr. Rohrabacher. Well, this is just a thought and one major 
strike. Any type of thing we do to give us some notice or try 
to knock an asteroid out of the path because we got enough, we 
have enough warning, would certainly be worth any investment we 
could make.
    Chairman Babin. Okay. Thank you, Mr. Rohrabacher. We are 
down to seven minutes. So we need to--I want to thank the 
witnesses for their very valuable and fascinating testimony and 
all the members for their questions. I'm sorry, did you have--
--
    Mr.Bera. No, no, I was just going to do the math. How many 
times does 50 million go into 125?
    Chairman Babin. There's a bunch of smart guys right here. 
You all come up with that. Anyway, the record will remain open 
for two weeks for additional comments, and we would appreciate 
that and written questions by the Members as well.
    So with that, this hearing is adjourned. Thank you so much.
    [Whereupon, at 4:19 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Thomas Zurbuchen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Ms. Cristina Chaplain

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. A. Thomas Young

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Chris McKee

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                  Additional Materials for the Record




                      Responses submitted by NASA
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                      
                      


                                 <all>
</pre></body></html>
